Office of Material Loss Reviews
Report No. MLR-10-036


Material Loss Review of North Houston
Bank, Houston, Texas, and Madisonville
State Bank, Madisonville, Texas




                                   May 2010
                                     Executive Summary
                                     Material Loss Review of North Houston Bank,
                                     Houston, Texas, and Madisonville State Bank,
                                     Madisonville, Texas
                                                                                    Report No. MLR-10-036
                                                                                                 May 2010

Why We Did The Audit
As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of the Inspector
General (OIG) conducted a material loss review of the failures of North Houston Bank, Houston, Texas
(North Houston) and Madisonville State Bank, Madisonville, Texas (Madisonville). On October 30,
2009, the Texas Department of Banking (TDB) closed the institutions and named the FDIC as receiver.
On November 20, 2009, the FDIC notified the OIG that North Houston’s total assets at closing were
$325.3 million and the estimated loss to the Deposit Insurance Fund (DIF) was $38 million and that
Madisonville’s total assets at closing were $237.8 million and the estimated loss to the DIF was $33.1
million. As of January 29, 2010, the estimated loss for North Houston had increased to $47.1 million and
the estimated loss for Madisonville had decreased to $27.6 million.

North Houston and Madisonville were wholly-owned subsidiaries of the FBOP Corporation, a privately-
held financial holding company headquartered in Oak Park, Illinois. Because both institutions were under
common ownership and followed a similar business model, we have addressed both failures in this report.
FBOP controlled one other FDIC-supervised institution, the Community Bank of Lemont (Lemont),
Lemont, Illinois, which was closed by the Illinois Department of Financial and Professional Regulation
on October 30, 2009. We did not include Lemont in this review because the loss was not material as that
term is defined in the FDI Act. The combined assets of North Houston and Madisonville represented
approximately 3 percent of the total assets held by FBOP’s nine subsidiary institutions as of October 30,
2009. Almost 95 percent of the total assets held by FBOP’s subsidiary institutions pertained to four
national banks. The U.S. Department of the Treasury OIG is conducting a separate material loss review
of these four national banks.

The objectives of this audit were to (1) determine the causes of failure for North Houston and
Madisonville and the resulting material losses to the DIF and (2) evaluate the FDIC’s supervision of the
institutions, including the FDIC’s implementation of the Prompt Corrective Action (PCA) provisions of
section 38 of the FDI Act.


Background
North Houston was established in 1963 as a state chartered nonmember institution. The institution was
acquired by FBOP in 1995, and at the time of its closing, operated a single office in Houston, Texas.
North Houston’s loan portfolio consisted primarily of commercial real estate (CRE) loans, a large
percentage of which pertained to acquisition, development, and construction (ADC). North Houston also
maintained a securities portfolio consisting primarily of preferred shares in the Federal National Mortgage
Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac)—two
Government Sponsored Enterprises (GSE).

Madisonville was established in 1902 as the First National Bank of Madisonville. In 1980, the institution
was purchased by the First City Bancorporation of Texas, Inc., and in 1993 it was acquired by FBOP.
Madisonville operated a single office in the small community of Madisonville, Texas, which is located
approximately 90 miles north of Houston. Because local loan demand was low, the majority of the
institution’s loan portfolio consisted of out-of-territory loan participations purchased through FBOP.
These loan participations generally pertained to CRE. Madisonville also maintained a securities portfolio
consisting primarily of preferred shares in Fannie Mae and Freddie Mac.




                                To view the full report, go to www.fdicig.gov
                                      Material Loss Review of North Houston Bank,
   Executive Summary
                                      Houston, Texas, and Madisonville State Bank,
                                      Madisonville, Texas
                                                                                       Report No. MLR-10-036
                                                                                                    May 2010


Audit Results
Causes of Failures and Material Losses
North Houston and Madisonville failed primarily because their Boards and management did not
effectively manage the risks associated with the institutions’ investment securities, particularly Fannie
Mae and Freddie Mac preferred stock. Between November and December 2007, North Houston and
Madisonville purchased $46.5 million and $28 million, respectively, in the preferred shares of Fannie
Mae and Freddie Mac. Although these securities were generally viewed as having low credit risk at the
time they were purchased, the amounts acquired exceeded the institutions’ capital as of December 31,
2007. In addition, neither institution had a viable exit strategy to mitigate losses in the event that market
conditions for these securities became adverse. In July 2008, investor concern over the financial
condition of Fannie Mae and Freddie Mac resulted in a significant decline in the market value of their
preferred shares. The securities declined further during the following month, and on September 7, 2008,
the GSEs were placed into conservatorship, eliminating much of the remaining market value of the
preferred shares.

The losses incurred by North Houston and Madisonville on their investments in Fannie Mae and Freddie
Mac materially impaired the institutions’ capital positions. In an effort to recapitalize the institutions,
FBOP made capital infusions into North Houston and Madisonville on September 30, 2008 totaling
$22.4 million and $7.8 million, respectively. In addition, both institutions recognized significant amounts
of deferred tax assets (DTA) as regulatory capital based on their losses in the Fannie Mae and Freddie
Mac preferred shares. However, the FDIC subsequently determined that the capital infusions were
ineligible for treatment as regulatory capital and that the amounts of DTAs included in the institutions’
regulatory capital significantly exceeded regulatory limitations.

Adding to the financial difficulties at North Houston and Madisonville was a deterioration in the quality
of the institutions’ CRE loan portfolios. Both institutions, which had histories of high CRE loan
concentrations, grew their CRE loan portfolios substantially in late 2007 and early 2008, just as the
nation’s credit and real estate markets were beginning to decline. This growth increased the institutions’
exposure to a sustained downturn in the real estate market and reduced their ability to absorb losses due to
unforeseen adverse events. Further, a lack of due diligence pertaining to loan purchases and weak credit
administration and loan review practices contributed to the loan quality problems that developed when the
real estate market declined. The losses associated with North Houston’s and Madisonville’s investment
securities, together with a decline in their CRE loan portfolios, depleted the institutions’ capital and
strained their liquidity. TDB closed North Houston and Madisonville on October 30, 2009 because the
institutions were unable to raise sufficient capital to support their operations.

The FDIC’s Supervision of North Houston and Madisonville
The FDIC, in coordination with TDB, provided ongoing supervisory oversight of North Houston and
Madisonville through regular onsite risk management examinations, visitations, and offsite monitoring
activities. The FDIC also coordinated extensively with representatives of the Office of the Comptroller of
the Currency (OCC) and the Board of Governors of the Federal Reserve System (the Federal Reserve) on
supervisory issues of mutual interest. Further, the FDIC had regular discussions with representatives of
FBOP regarding issues affecting the holding company and its subsidiary institutions, such as FBOP’s
ongoing efforts to raise needed capital. Through these efforts, the FDIC identified risks in North




                                 To view the full report, go to www.fdicig.gov
                                      Material Loss Review of North Houston Bank,
   Executive Summary
                                      Houston, Texas, and Madisonville State Bank,
                                      Madisonville, Texas
                                                                                      Report No. MLR-10-036
                                                                                                   May 2010

Houston’s and Madisonville’s operations and brought these risks to the attention of the institutions’
Boards and management.

With respect to key risks and issues, the FDIC’s supervisory oversight of the risks associated with North
Houston’s and Madisonville’s investments in Fannie Mae and Freddie Mac preferred shares was
generally reasonable. However, the failures of North Houston and Madisonville offer an important lesson
learned with respect to investment securities that are not explicitly backed by the full faith and credit of
the U.S. government. That is, when institutions make significant investments in such securities, the FDIC
should ensure that sound risk management controls are in place and implemented. Such controls include
prudent limits relative to total capital and viable exit strategies to mitigate losses when market conditions
for the securities become adverse.

We also reviewed the FDIC’s supervision of FBOP’s efforts to recapitalize the institutions by infusing
capital and including DTAs in regulatory capital. Regarding the capital infusions, the FDIC took
appropriate steps to support its final determination that the infusions provided to North Houston and
Madisonville on September 30, 2008 were ineligible for treatment as regulatory capital. However, the
FDIC’s final determination could have been made sooner. The FDIC expressed concern about the capital
infusions to FBOP and the institutions’ management on multiple occasions. However, state examination
reports transmitted to the institutions while the capital infusions were under review did not raise concerns
regarding the matter. An earlier final determination may have impacted the FDIC’s supervisory strategy
for the institutions and prompted more immediate corrective action by FBOP. With respect to the DTAs,
the FDIC took appropriate steps to ensure that the amounts of DTAs included in the institutions’
regulatory capital were consistent with the limitations defined in the FDIC Rules and Regulations.
However, the FDIC’s communications with FBOP regarding this matter were generally informal and not
always documented.

Finally, examiners could have expanded their criticisms of North Houston’s and Madisonville’s CRE
concentration risk management practices in the November 2006 and March 2007 examination reports.
Expanded criticism in this regard may have influenced the institutions to curb their CRE loan growth in
late 2007 and early 2008 and implement stronger controls before the real estate market began to decline.

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of mandatory and
discretionary supervisory actions pertaining to all insured depository institutions. The section requires
regulators to take progressively more severe actions, known as “prompt corrective actions,” as an
institution’s capital level deteriorates. The purpose of section 38 is to resolve problems of insured
depository institutions at the least possible long-term cost to the DIF. Based on the supervisory actions
taken with respect to North Houston and Madisonville, the FDIC properly implemented applicable PCA
provisions of section 38.


Management Response
The Director, Division of Supervision and Consumer Protection (DSC), provided a written response to a
draft of this report on May 19, 2010. In its response, DSC reiterated the OIG’s conclusions regarding the
causes of failure for North Houston and Madisonville. DSC also noted that it worked cooperatively with
the OCC, the Federal Reserve, and the TDB in coordinating the supervision of FBOP and its subsidiary
institutions.




                                 To view the full report, go to www.fdicig.gov
                                 Contents
                                                                    Page

Background                                                            2

Causes of Failures and Material Losses                                5
  Investment Securities                                               6
  CRE Loan Concentrations                                            10
  Due Diligence, Credit Administration, and Loan Review              12

The FDIC’s Supervision of North Houston and Madisonville             13
   Supervisory History                                               14
   Oversight of Fannie Mae and Freddie Mac Investments               16
   Assessment of Capital Infusions                                   17
   Deferred Tax Assets                                               19
   Supervisory Response to CRE Loan Concentrations                   20
   Implementation of PCA                                             21
   Capital Purchase Program                                          23

Corporation Comments                                                 24

Appendices
  1. Timeline of Key Events Related to the September 2008 Capital    25
     Infusions
  2. Objectives, Scope, and Methodology                              29
  3. Glossary of Terms                                               31
  4. Acronyms                                                        35
  5. Corporation Comments                                            36

Tables
   1. Total Assets, Losses, and Regulators for FBOP’s Subsidiary      3
       Institutions
   2. Selected Financial Information for North Houston                4
   3. Selected Financial Information for Madisonville                 5
   4. North Houston’s and Madisonville’s CRE Concentrations          11
      Compared to Peer Groups
   5. Onsite Examinations and Visitations of North Houston and       14
      Madisonville
   6. North Houston’s and Madisonville’s Capital Levels              22

Figure
   Performance of Fannie Mae and Freddie Mac Preferred Shares         8
Federal Deposit Insurance Corporation                                                 Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                    Office of Inspector General



DATE:                 May                      20, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
 Division                                         of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of North Houston Bank, Houston,
                                          Texas, and Madisonville State Bank, Madisonville, Texas
                                          (Report No. MLR-10-036)


As required by section 38(k) of the Federal Deposit Insurance (FDI) Act, the Office of
Inspector General (OIG) conducted a material loss1 review of the failures of North
Houston Bank, Houston, Texas (North Houston) and Madisonville State Bank,
Madisonville, Texas (Madisonville). The Texas Department of Banking (TDB) closed
both institutions on October 30, 2009 and named the FDIC as receiver. North Houston
and Madisonville were wholly-owned subsidiaries of the FBOP Corporation, a privately-
held financial holding company headquartered in Oak Park, Illinois. Because both
institutions were under common ownership and followed a similar business model, we
have addressed both failures in this report. FBOP controlled one other FDIC-supervised
institution, the Community Bank of Lemont (Lemont), Lemont, Illinois, which was closed
by the Illinois Department of Financial and Professional Regulation (IDFPR) on
October 30, 2009. We did not include Lemont in this review because the institution’s loss
is not material as that term is defined in the FDI Act.

The combined assets of North Houston and Madisonville represented approximately
3 percent of the total assets held by FBOP’s nine subsidiary institutions as of October 30,
2009. Almost 95 percent of the total assets held by FBOP’s subsidiary institutions
pertained to four national banks.2 The U.S. Department of the Treasury (Treasury) OIG is
conducting a separate material loss review of these four national banks.

On November 20, 2009, the FDIC notified the OIG that North Houston’s total assets at
closing were $325.3 million and the estimated loss to the Deposit Insurance Fund (DIF)
was $38 million and that Madisonville’s total assets at closing were $237.8 million and the
estimated loss to the DIF was $33.1 million. As of January 29, 2010, the estimated loss
for North Houston had increased to $47.1 million and the estimated loss for Madisonville

1
  As defined by section 38(k)(2)(B) of the FDI Act, a loss is material if it exceeds the greater of $25 million
or 2 percent of an institution’s total assets at the time the FDIC was appointed receiver.
2
  The four banks are the California National Bank, San Diego National Bank, Pacific National Bank, and
Park National Bank.
had decreased to $27.6 million. When the DIF incurs a material loss with respect to an
insured depository institution for which the FDIC is appointed receiver, the FDI Act states
that the Inspector General of the appropriate federal banking agency shall make a written
report to that agency. The report is to consist of a review of the agency’s supervision of
the institution, including the agency’s implementation of FDI Act section 38, Prompt
Corrective Action (PCA); a determination as to why the institution’s problems resulted in
a material loss to the DIF; and recommendations to prevent future losses.

The audit objectives were to (1) determine the causes of failure for North Houston and
Madisonville and the resulting material losses to the DIF and (2) evaluate the FDIC’s
supervision3 of the institutions, including the FDIC’s implementation of the PCA
provisions of section 38 of the FDI Act. This report presents our analysis of the failures of
North Houston and Madisonville and the FDIC’s efforts to ensure that the Boards of
Directors (Boards) and management operated the institutions in a safe and sound manner.

The report does not contain formal recommendations. Instead, as major causes, trends,
and common characteristics of institution failures are identified in our material loss
reviews, we will communicate those to FDIC management for its consideration. As
resources allow, we may also conduct more in-depth reviews of specific aspects of the
FDIC’s supervision program and make recommendations as warranted.4 Appendix 1
contains a timeline of key events pertaining to capital infused into the institutions in
September 2008; Appendix 2 contains details on our objectives, scope, and methodology;
Appendix 3 contains a glossary of terms; Appendix 4 contains a list of acronyms; and
Appendix 5 contains the Corporation’s comments.


Background
Incorporated in 1982, FBOP had a total of nine FDIC-insured subsidiary institutions
operating in Illinois, California, Texas, and Arizona. The FDIC served as the primary
federal regulator for three of the nine institutions and the Office of the Comptroller of the
Currency (OCC) served as the primary federal regulator for the remaining six institutions.
All nine institutions were considered affiliates for purposes of Section 23A of the Federal
Reserve Act, made applicable to insured nonmember institutions by Section 18(j) of the
FDI Act.5 FBOP also had numerous non-bank subsidiaries, including real estate
development and holding companies, financial services firms, and capital trusts. Table 1


3
  The FDIC’s supervision program promotes the safety and soundness of FDIC-supervised institutions,
protects consumers’ rights, and promotes community investment initiatives by FDIC-supervised insured
depository institutions. The FDIC’s Division of Supervision and Consumer Protection (DSC) (1) performs
examinations of FDIC-supervised institutions to assess their overall financial condition, management
policies and practices (including internal control systems), and compliance with applicable laws and
regulations and (2) issues related guidance to institutions and examiners.
4
  For example, in May 2010, the FDIC OIG’s Office of Evaluations initiated a review of the role and federal
regulators’ use of the Prompt Regulatory Action provisions of the FDI Act (section 38, PCA and section 39,
Safety and Soundness Standards) in the banking crisis.
5
  See the glossary for more information regarding Section 23A’s definition of affiliates.


                                                     2
summarizes the total assets, estimated losses, and primary federal regulators for FBOP’s
subsidiary institutions at the time of their closures on October 30, 2009.

Table 1: Total Assets, Losses, and Regulators for FBOP’s Subsidiary Institutions
                                                         Total           Estimated             Primary
         Institution Name and Location                Assets at          Loss to the           Federal
                                                        Closing              DIF              Regulator
    California National Bank, Los Angeles, CA        $6,989,399,069       $972,222,695          OCC
    San Diego National Bank, San Diego, CA           $3,560,021,170       $365,251,237          OCC
    Pacific National Bank, San Francisco, CA         $2,086,184,690       $225,005,987          OCC
    Park National Bank, Chicago, IL                  $4,701,034,638       $655,615,430          OCC
    North Houston Bank, Houston, TX                   $325,253,289         $47,131,825          FDIC
    Madisonville State Bank, Madisonville, TX          $237,781,212        $27,603,906          FDIC
    Bank USA, NA, Phoenix, AZ                          $193,991,795        $21,315,867          OCC
    Citizens National Bank, Teague, TX                $120,708,029         $24,930,664          OCC
    Community Bank of Lemont, Lemont, IL                $84,963,982        $24,129,505          FDIC
    Totals                                          $18,299,337,874     $2,363,207,116
Source: Failed institution information provided by the FDIC’s Division of Finance as of January 29, 2010.

FBOP was an interrelated enterprise and, as such, key business strategies were generally
determined on a corporate-wide basis. For example, FBOP significantly influenced the
management of its subsidiary institutions’ capital, liquidity, and investment strategies;
facilitated the purchase and sale of loans among its subsidiary institutions; and provided
various operational services to its subsidiary institutions, such as internal audit, financial
accounting and reporting, and information technology support. FBOP was wholly-owned
by its Chairman and Chief Executive Officer (CEO), who also served as Board Chairman
of North Houston and Madisonville. As such, this individual exercised significant control
over the strategic and business decisions pertaining to both institutions.

North Houston

North Houston was established in 1963 as a state-chartered nonmember institution. The
institution was acquired by FBOP in 1995 and, at the time of the institution’s closing,
operated a single office in Houston, Texas. North Houston’s loan portfolio consisted
primarily of commercial real estate (CRE) loans, a large percentage of which pertained to
acquisition, development, and construction (ADC). The institution originated large loans
in the Houston market and participated the loans to FBOP affiliates, including
Madisonville. In addition, North Houston purchased participations in large CRE loans
originated by other FBOP affiliates. North Houston also maintained a securities portfolio
consisting primarily of preferred shares in the Federal National Mortgage Association
(Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie Mac).6




6
  Fannie Mae and Freddie Mac are Government Sponsored Enterprises (GSE). See the glossary for more
information and Fannie Mae and Freddie Mac.


                                                     3
The FDIC and TDB considered the management team at North Houston to be experienced
and capable, as reflected in the supervisory component ratings7 of “1” or “2” assigned to
management at every examination between 2004 and 2006. Table 2 summarizes selected
financial information pertaining to North Houston for the 9-month period ended
September 30, 2009 and for the 4 preceding calendar years.

Table 2: Selected Financial Information for North Houston
    Financial Measure ($000s)         Sept - 09      Dec - 08       Dec - 07       Dec - 06       Dec - 05
    Total Assets                       311,140       351,092        382,814        301,025        382,688
    Gross Loans and Leases             265,518       290,177        292,143        269,058        317,592
    Investment Securities              19,457         19,068         67,352         18,381         46,214
    Deposits                           307,166       251,276        275,228        238,777        226,510
    Net Income (Loss)                  -24,777        -29,853        4,322          5,221          7,022
Source: Uniform Bank Performance Reports (UBPR) for North Houston.

Madisonville

Madisonville was established in 1902 as the First National Bank of Madisonville. In
1980, the institution was purchased by the First City Bancorporation of Texas, Inc., and in
1993 it was acquired by FBOP. Madisonville operated a single office in the small
community of Madisonville, Texas, which is located approximately 90 miles north of
Houston. Because local loan demand was low, the majority of the institution’s loan
portfolio consisted of out-of-territory loan participations purchased through FBOP’s
Purchased Asset Program.8 These loan participations generally pertained to CRE and
were often collateralized by retail shopping centers and multi-family residential properties.
Madisonville also maintained a securities portfolio consisting primarily of preferred shares
in Fannie Mae and Freddie Mac. Like North Houston, the FDIC and TDB considered
Madisonville’s management team to be strong, as reflected in the supervisory component
ratings of “1” assigned to management at every examination between 2004 and 2007.
Table 3 summarizes selected financial information pertaining to Madisonville for the
9-month period ended September 30, 2009 and for the 4 preceding calendar years.




7
  Pursuant to the Uniform Financial Institutions Rating System (UFIRS), federal and state regulators assign
supervisory ratings to financial institutions based on the results of safety and soundness examinations and
other supervisory activities. Ratings consist of a “composite” rating reflecting the institution’s overall
financial condition and operations and six “component” ratings represented by the CAMELS acronym:
Capital adequacy, Asset quality, Management practices, Earnings performance, Liquidity position, and
Sensitivity to market risk. Ratings are assigned on a scale of 1 to 5, with 1 representing the least supervisory
concern and 5 representing the greatest supervisory concern.
8
  FBOP used its Purchased Asset Program to purchase loan pools, packaged loans, and other credits for
placement in subsidiary institutions.


                                                       4
Table 3: Selected Financial Information for Madisonville
    Financial Measure ($000s)       Sept - 09      Dec - 08      Dec - 07       Dec - 06     Dec - 05
    Total Assets                     244,027       244,411       212,923        177,754      190,720
    Gross Loans and Leases           188,369       208,395       159,288        132,409      154,693
    Investment Securities            11,094         12,587        42,384         8,939        29,465
    Deposits                         224,653       189,830       154,690        150,152      144,923
    Net Income (Loss)                 -5,152        -13,195       2,675          3,798        4,064
Source: UBPRs for Madisonville.



Causes of Failures and Material Losses
North Houston and Madisonville failed primarily because their Boards and management
did not effectively manage the risks associated with the institutions’ investment securities,
particularly Fannie Mae and Freddie Mac preferred stock. Between November and
December 2007, North Houston and Madisonville purchased $46.5 million and
$28 million, respectively, in the preferred shares of Fannie Mae and Freddie Mac.
Although these securities were generally viewed as having low credit risk at the time they
were purchased, the amounts acquired exceeded the institutions’ capital as of
December 31, 2007. In addition, neither institution had a viable exit strategy to mitigate
losses in the event that market conditions for these securities became adverse. In July
2008, investor concern over the financial condition of Fannie Mae and Freddie Mac
resulted in a significant decline in the market value of their preferred shares. The
securities declined further during the following month, and on September 7, 2008, the
Director of the Federal Housing Finance Agency (FHFA)9 placed Fannie Mae and Freddie
Mac into conservatorship, eliminating much of the remaining market value of the
preferred shares.

The losses incurred by North Houston and Madisonville on their investments in Fannie
Mae and Freddie Mac materially impaired the institutions’ capital positions. In an effort
to recapitalize the institutions, FBOP made capital infusions into North Houston and
Madisonville on September 30, 2008 totaling $22.4 million and $7.8 million, respectively.
In addition, both institutions recognized significant amounts of deferred tax assets
(DTA)10 as regulatory capital based on their losses in the Fannie Mae and Freddie Mac
preferred shares. However, the FDIC subsequently determined that the capital infusions
were ineligible for treatment as regulatory capital and that the amounts of DTAs included
in the institutions’ regulatory capital significantly exceeded regulatory limitations.

Adding to the financial difficulties at North Houston and Madisonville was a deterioration
in the quality of the institutions’ CRE loan portfolios. Both institutions, which had
histories of high CRE loan concentrations, grew their CRE loan portfolios substantially in

9
  The Housing and Economic Recovery Act of 2008 created the FHFA and provided it with the authority to
place Fannie Mae or Freddie Mac into conservatorship or receivership, if necessary, to restore them to a
sound financial condition.
10
   A DTA is the potential tax benefit of operating losses. It represents the amount by which taxes receivable
are expected to be realized from Net Operating Loss carrybacks or future operating income. The amount of
DTAs that may be included in Tier 1 Capital is limited by regulation. See the glossary for more information.


                                                     5
late 2007 and early 2008, just as the nation’s credit and real estate markets were beginning
to decline. This growth increased the institutions’ exposure to a sustained downturn in the
real estate market and reduced their ability to absorb losses due to unforeseen adverse
events. Further, a lack of due diligence pertaining to loan purchases and weak credit
administration and loan review practices contributed to the loan quality problems that
developed when the real estate market declined. The losses associated with North
Houston’s and Madisonville’s investment securities, together with a decline in their CRE
loan portfolios, depleted the institutions’ capital and strained their liquidity. TDB closed
North Houston and Madisonville on October 30, 2009 because the institutions were unable
to raise sufficient capital to support their operations.

Although not a cause of failure for North Houston or Madisonville, the FDIC’s Board of
Directors determined that assessing a cross-guarantee liability against Park National Bank
and Citizens National Bank in connection with the failure of FBOP’s other seven
subsidiary institutions would result in the least cost to the DIF. Under the FDI Act, an
insured depository institution is liable for any loss that the FDIC incurs, or reasonably
expects to incur, in connection with resolving a commonly-controlled institution. This is
generally referred to as “cross-guarantee liability.” At the time of their closure, Park
National Bank and Citizens National Bank were experiencing a deterioration in the quality
of their assets. However, the OCC determined that statutory grounds did not yet exist to
support the appointment of a receiver for either institution. After assessing Park National
Bank and Citizens National Bank for the anticipated losses of the other seven failed
subsidiary institutions, both institutions immediately became insolvent and the OCC
appointed the FDIC as receiver.11

Investment Securities

The overall investment strategy for institutions in the FBOP organization was determined
at the holding company level, with specific investment decisions approved by each
institution’s Board. Notably, the Chairman and CEO of FBOP also served as the Board
Chairman for seven of the holding company’s nine subsidiary institutions, including North
Houston and Madisonville. As described below, North Houston and Madisonville
incurred significant losses in connection with their investments in the preferred shares of
Fannie Mae and Freddie Mac and corporate bonds issued by other financial institutions.
These losses were the principal causes of failure for both institutions.

Fannie Mae and Freddie Mac Preferred Shares

Between November and December 2007, North Houston and Madisonville purchased
$46.5 million and $28 million, respectively, of the preferred shares of Fannie Mae and
Freddie Mac. These investments, which were made at the direction of the holding
company’s management, were part of a corporate-wide strategy to deploy almost $900
million in liquid resources in relatively low-risk investment securities. The Chairman and

11
  As previously mentioned, the Treasury OIG is conducting a material loss review covering Park National
Bank. A material loss review of Citizens National Bank is not required because the institution’s loss is not
material as that term is defined in the FDI Act.


                                                      6
CEO of FBOP determined that these investments represented an acceptable risk at the
time they were made because the securities carried a favorable credit risk rating of “AA”
and there was a public perception that the GSEs were implicitly backed by the federal
government. In addition, there were no specific regulatory limits on the amounts of
Fannie Mae and Freddie Mac preferred shares that North Houston and Madisonville could
purchase and the securities paid an attractive dividend yield.

Although the preferred shares of Fannie Mae and Freddie Mac were generally viewed as
having low credit risk at the time of their purchase, the amounts acquired by the
institutions exceeded their capital as of December 31, 2007. Section 3.3, Securities and
Derivatives, of the DSC Risk Management Manual of Examination Policies states that
concentrations in specific issuers, market sectors, and instrument types should be limited.
In addition, Fannie Mae and Freddie Mac’s preferred shares were not explicitly backed by
the full faith and credit of the U.S. government, and the FDIC’s general risk-based capital
rules for state chartered, nonmember institutions required a 100-percent risk weighting for
both GSEs’ preferred shares.12 Further, both Fannie Mae and Freddie Mac were
experiencing financial difficulties when the securities were purchased, and neither North
Houston nor Madisonville had viable exit strategies in the event that market conditions for
the securities became adverse.

In July 2008, investor concern over the financial condition of Fannie Mae and Freddie
Mac resulted in a sharp decline in the market value of the GSEs’ preferred shares.
Immediately following this decline, the Treasury, the Board of Governors of the Federal
Reserve System (the Federal Reserve), and the Congress implemented a number of actions
intended to support both GSEs.13 Although these actions resulted in a brief price recovery
for the preferred shares, the securities declined further in August, and on September 7,
2008, the Director of FHFA placed Fannie Mae and Freddie Mac into conservatorship. As
a result of the conservatorships, the preferred shares lost almost all of their value,
requiring FBOP’s subsidiary institutions to recognize a combined impairment loss of
approximately $838 million in September 2008. Of this amount, North Houston and
Madisonville took write-downs totaling $42.9 million and $25.5 million, respectively.
The figure on the following page illustrates the performance of Fannie Mae’s and Freddie
Mac’s preferred shares between November 30, 2007 and September 8, 2008 (the first day
of trading after the GSEs were placed into conservatorship).




12
   The FDIC’s general risk-based capital rules require institutions to assign their assets to 1 of 5 risk weight
categories—0 percent, 20 percent, 50 percent, 100 percent, and 200 percent. See the Risk-based Capital
Rules in the glossary for further information.
13
   Such actions included, among other things, allowing Fannie Mae and Freddie Mac to borrow funds from
the Federal Reserve and the enactment of the Housing and Economic Recovery Act of 2008. The Act
provided the Treasury with increased lending authority for the GSEs and emergency authority (expiring on
December 31, 2009) to purchase an unlimited amount of GSE debt or equity securities, if necessary.


                                                        7
Performance of Fannie Mae and Freddie Mac Preferred Shares




Source: Publicly available information on the performance of Fannie Mae’s Series O preferred shares and
Freddie Mac’s Series Z preferred shares.

Corporate Bonds

In addition to Fannie Mae and Freddie Mac preferred shares, North Houston and
Madisonville held corporate bonds issued by financial institutions with exposure to the
housing market. Although these securities were generally rated investment grade at the
time they were purchased, some fell below investment grade and lost significant value in
2008 and 2009. For example, North Houston and Madisonville took write-downs totaling
$5.3 million and $3 million, respectively, on their corporate bond holdings during 2008.
The institutions experienced further deterioration in their corporate bond holdings during
2009 as additional bonds fell below investment grade and lost significant value.

Impact of Securities Losses on Regulatory Capital

The losses incurred by North Houston and Madisonville in connection with their
investments in Fannie Mae and Freddie Mac materially impaired the institutions’ capital
positions. Maintaining Well Capitalized positions for PCA purposes was critical to the
viability of both institutions because they depended heavily on wholesale funding sources,
particularly brokered deposits and Federal Home Loan Bank (FHLB) borrowings, to fund
their loans and maintain liquidity. Such funding sources can become limited or restricted
when an institution falls below a Well Capitalized position. Notably, North Houston’s and
Madisonville’s net non-core funding dependence ratios14 as of September 30, 2008 were
65 percent and 57 percent, respectively. Such ratios placed the institutions at the top of
their peer groups for net non-core funding dependence. North Houston’s liquidity risk


14
   The net non-core funding dependence ratio is a measure of the degree to which an institution relies on
non-core funding to support longer-term assets (e.g., loans that mature in more than 1 year). An elevated
ratio reflects heavy reliance on potentially volatile funding sources that may not be available in times of
financial stress. For purposes of this report, the terms non-core funding and wholesale funding have
substantially the same meaning.


                                                      8
profile was particularly high. Without ready access to wholesale funding sources, the
institution would have likely experienced a near-term liquidity crisis.

In an effort to return the institutions to Well Capitalized positions, FBOP provided capital
infusions to North Houston and Madisonville. In addition, both institutions included
significant amounts of DTAs in their Tier 1 Capital. However, as described below, the
FDIC subsequently determined that the capital infusions were ineligible for treatment as
regulatory capital. In addition, the DTA amounts included in the institutions’ Tier 1
Capital significantly exceeded regulatory limitations. A description of the capital
infusions and DTAs, along with their impact on the institutions’ regulatory capital,
follows.

   •   Capital Infusions. On September 30, 2008, four FBOP subsidiary institutions
       made $40 million in loans to two non-bank subsidiaries. On the same day, the
       non-bank subsidiaries paid the $40 million as cash dividends to FBOP, which
       immediately infused the funds into five subsidiary institutions as capital. North
       Houston and Madisonville received $22.4 million and $7.8 million, respectively,
       of the $40 million in capital infusions from FBOP.

   •   Deferred Tax Assets. As of September 30, 2008, North Houston and
       Madisonville booked approximately $16 million and $9 million, respectively, in
       DTAs in connection with the institutions’ losses on Fannie Mae and Freddie Mac
       preferred shares.

In separate letters dated November 21, 2008, the FDIC notified the Boards of North
Houston and Madisonville that the capital infusions received on September 30, 2008 were
being reviewed to determine whether they should be recognized as regulatory capital. The
letters also notified the institutions that their September 30, 2008 Consolidated Reports of
Condition and Income (Call Report) appeared to include excessive amounts of DTA as
regulatory capital. With regard to the DTAs, the letters referenced Part 325, Capital
Maintenance, of the FDIC Rules and Regulations which generally provides that the
maximum allowable amount of DTAs that are dependent upon future taxable income, net
of any valuation allowance, is limited to the lesser of (1) the amount of DTA dependent
upon future taxable income expected to be realized within 1 year based on projected future
taxable income for that year or (2) 10 percent of Tier 1 Capital before deducting certain
disallowed assets. The DTA amounts recognized by North Houston and Madisonville for
regulatory capital purposes represented 56 percent and 59 percent, respectively, of their
Tier 1 Capital. Both figures were well in excess of the 10 percent limitation defined in
Part 325.

At the direction of the FDIC, the institutions amended their September 30, 2008 Call
Reports to reduce the amounts of DTA included in their Tier 1 Capital consistent with the
limitations defined in Part 325. As a result of these reductions, the institutions fell to
Undercapitalized positions. As discussed later in this report, FBOP requested, but did not
obtain, regulatory relief from the FDIC with respect to the 10-percent limitation defined in
Part 325. On December 31, 2008, FBOP infused additional capital into North Houston


                                              9
and Madisonville totaling $6 million and $5.5 million, respectively. FBOP also purchased
loans from North Houston totaling almost $61 million on December 31, 2008, which had
the effect of improving the institution’s regulatory capital ratios. As a result of these
transactions, the institutions reported Well Capitalized positions in their December 31,
2008 Call Reports.

In September 2009, the FDIC notified North Houston and Madisonville that the capital
infusions received on September 30, 2008 could not be recognized as regulatory capital.
In making its determination, the FDIC noted that three of the four subsidiary institutions
(including North Houston) that had made loans to the non-bank subsidiaries to facilitate
the capital infusions received capital totaling $10 million in return. Based on Emerging
Issues Task Force Issue No. 85-1, Classifying Notes Received for Capital Stock, the FDIC
concluded that these institutions received what was in substance a note, rather than an
asset. Accordingly, the institutions should have reported the note receivable from the non-
bank subsidiaries as a reduction of equity capital in their Call Reports. The FDIC noted
that this accounting treatment reflected the lack of economic substance to a transaction in
which a purported increase in equity capital is in the form of an unpaid note receivable
from the contributor of the capital. This accounted for $10 million of the $40 million in
cash infusions.

The FDIC determined that the remaining $30 million in capital infusions failed to provide
capital support to the institutions collectively and their ability to absorb losses. Because of
the cross-guarantee liability under Section 5(e) of the FDI Act, the FDIC determined that
it was both appropriate and necessary to consider the cash infusions in the context of
FBOP and its subsidiaries on a combined basis for regulatory accounting purposes.
Although individual institutions received cash from FBOP, the source of the cash was the
loans from other FBOP institutions. When viewed in this manner, the FDIC determined
that the combined institutions essentially received notes, rather than cash, as contributions
to their equity capital. Accordingly, the FDIC directed the institutions to amend their Call
Reports for the reporting periods at issue to exclude from regulatory capital the amounts
pertaining to the infusions. After making these adjustments, North Houston and
Madisonville reported Critically Undercapitalized and Significantly Undercaptialzed
positions, respectively, in their September 30, 2009 Call Reports.

CRE Loan Concentrations

As of December 31, 2007, approximately 95 percent of North Houston’s $292.1 million
loan portfolio and 86 percent of Madisonville’s $159.3 million loan portfolio consisted of
CRE loans. As of that same date, North Houston had an additional $259 million in
unfunded loan commitments, of which $257 million (or 99 percent) pertained to CRE.
Madisonville’s unfunded loan commitments as of December 31, 2007 totaled
$18.3 million, of which $16.6 million (or 91 percent) pertained to CRE. Table 4 reflects
the institutions’ CRE loan concentrations relative to total capital as compared to their peer
groups. These high CRE concentrations made both institutions vulnerable to a sustained
downturn in the real estate market.




                                              10
Table 4: North Houston’s and Madisonville’s CRE Concentrations Compared to
         Peer Groups
              North Houston’s      Peer Group Average       Madisonville’s    Peer Group Average
   Year
              CRE Relative to        and Percentile         CRE Relative to     and Percentile
  Ended
               Total Capital             Ranking             Total Capital          Ranking
  Dec – 08          865%             380% (98 percentile)        824%         164% (99 percentile)
  Dec – 07          598%             377% (88 percentile)        511%         169% (97 percentile)
  Dec – 06          466%             371% (69 percentile)        397%         169% (92 percentile)
  Dec – 05          555%             358% (85 percentile)        444%         158% (96 percentile)
Source: UBPRs for North Houston and Madisonville.

In December 2006, the FDIC, OCC, and Federal Reserve issued joint guidance, entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
Although the guidance does not establish specific CRE lending limits, it does define
criteria that the agencies use to identify institutions potentially exposed to significant CRE
concentration risk. According to the guidance, an institution that has experienced rapid
growth in CRE lending, has notable exposure to a specific type of CRE, or is approaching
or exceeds the following supervisory criteria may be identified for further supervisory
analysis of the level and nature of its CRE concentration risk:

    •   Total CRE loans representing 300 percent or more of total capital where the
        outstanding balance of the institution’s CRE loan portfolio has increased by
        50 percent or more during the prior 36 months; or

    •   Total loans for construction, land development, and other land (referred to in this
        report as ADC) representing 100 percent or more of total capital.

As of December 31, 2007, North Houston’s and Madisonville’s non-owner occupied CRE
loans represented 582 percent and 489 percent, respectively, of the institutions’ total
capital. These levels were significantly higher than the levels defined in the 2006
guidance as possibly warranting further supervisory analysis. Although North Houston
and Madisonville had a history of high CRE loan concentrations, neither institution had
adequate concentration risk management controls. Among other things, neither institution
had established a comprehensive, written CRE lending policy that included prudent
concentration limits and contingency plans for reducing or mitigating concentrations
under adverse market conditions. Further, between September 30, 2007 and March 31,
2008, North Houston and Madisonville grew their loan portfolios by $82.3 million (or
31 percent) and $64.7 million (or 46 percent), respectively. Almost all of this increase
consisted of CRE and ADC loans purchased from affiliates or through FBOP’s Purchased
Asset Program. This CRE growth strategy was implemented just as the nation’s credit and
real estate markets were beginning to deteriorate, reducing the institutions’ ability to
absorb losses due to unforeseen adverse events.

In July 2009, the FDIC and TDB initiated examinations of North Houston and
Madisonville. Although both institutions were closed before final examination reports
were issued, examiners identified a significant deterioration in each institution’s loan
portfolio. With respect to North Houston, examiners noted that $61.6 million of the


                                                    11
institution’s $264.2 million loan portfolio (or 23 percent) should be classified. These
classifications consisted principally of CRE and ADC loans in Texas. In its final Call
Report for the quarter ended September 30, 2009, North Houston reported that almost 13
percent of its loan portfolio was in nonaccrual status. With respect to Madisonville,
examiners noted that $24.9 million of the institution’s $190.1 million loan portfolio (or
13 percent) should be classified. These classifications consisted principally of out-of-
territory CRE loan participations. Madisonville reported in its September 30, 2009 Call
Report that almost 7 percent of the institution’s loan portfolio was in nonaccrual status.

Due Diligence, Credit Administration, and Loan Review

Madisonville did not perform adequate due diligence when it acquired CRE loans though
FBOP’s Purchased Asset Program. In addition, both institutions exhibited various credit
administration weaknesses and Madisonville’s loan review function was not adequate.
Although not primary causes of failure, the lack of adequate due diligence, credit
administration, and loan reviews were contributing factors in the CRE loan quality
problems that developed when the institutions’ lending markets declined. A brief
description of these weaknesses follows.

Due Diligence

The DSC Risk Management Manual of Examination Policies states that institutions
purchasing loan participations must make a thorough, independent evaluation of the
transactions and the risks involved before committing any funds. Institutions should also
apply the same standards of prudence, credit assessment, approval criteria, and “in-house”
limits that would be employed if the purchasing organization were originating the loan.
At the time of the December 2008 examination, 86 percent of Madisonville’s loan
portfolio consisted of loans acquired through the Purchased Asset Program. Generally,
the institution relied on due diligence performed by FBOP and the entities that originated
the loans, rather than performing its own independent assessment of the loans prior to
purchase. Examiners noted during the March 2007, December 2008, and July 2009
examinations that management often lacked detailed knowledge or information for the
loans it purchased and had to contact the lead institution to obtain answers to examiner
questions. Examiners noted that management’s lack of familiarity with its loans limited
the institution’s ability to take necessary action before deterioration resulted in adverse
classifications.

Credit Administration and Loan Review

Examiners identified various credit administration and loan review weaknesses in the
years leading to the institutions’ failures. Such weaknesses included, but were not limited
to:

   •   Loan documentation exceptions for a large percentage of loans reviewed by
       examiners. Exceptions principally consisted of stale financial information on
       borrowers.



                                            12
   •   Failure to document the validity of key assumptions used in real estate appraisals.
       In some cases, appraisals were not updated when appropriate. The lack of
       sufficient information in some appraisals resulted in apparent violations of Part
       323, Appraisals, of the FDIC Rules and Regulations.

   •   A weak internal loan review function at Madisonville.


The FDIC’s Supervision of North Houston and Madisonville
The FDIC, in coordination with TDB, provided ongoing supervisory oversight of North
Houston and Madisonville through regular onsite risk management examinations,
visitations, and offsite monitoring activities. The FDIC also coordinated extensively with
representatives of the OCC and the Federal Reserve on supervisory issues of mutual
interest. Further, the FDIC had regular discussions with representatives of FBOP
regarding issues affecting the holding company and its subsidiary institutions, such as
FBOP’s ongoing efforts to raise needed capital. Through these efforts, the FDIC
identified risks in North Houston’s and Madisonville’s operations and brought these risks
to the attention of the institutions’ Boards and management.

With respect to key risks and issues, the FDIC’s supervisory oversight of the risks
associated with North Houston’s and Madisonville’s investments in Fannie Mae and
Freddie Mac preferred shares was generally reasonable. However, the failures of North
Houston and Madisonville offer an important lesson learned with respect to investment
securities that are not explicitly backed by the full faith and credit of the U.S. government.
That is, when institutions make significant investments in such securities, the FDIC should
ensure that sound risk management controls are in place and implemented. Such controls
include prudent limits relative to total capital and viable exit strategies to mitigate losses
when market conditions for the securities become adverse.

We also reviewed the FDIC’s supervision of FBOP’s efforts to recapitalize the institutions
by infusing capital and including DTAs in regulatory capital. Regarding the capital
infusions, the FDIC took appropriate steps to support its final determination that the
infusions provided to North Houston and Madisonville on September 30, 2008 were
ineligible for treatment as regulatory capital. However, the FDIC’s final determination
could have been made sooner. The FDIC expressed concern about the capital infusions to
FBOP and the institutions’ management on multiple occasions. However, state
examination reports transmitted to the institutions while the capital infusions were under
review did not raise concerns regarding the matter. An earlier final determination may
have impacted the FDIC’s supervisory strategy for the institutions and prompted more
immediate corrective action by FBOP. With respect to the DTAs, the FDIC took
appropriate steps to ensure that the amounts of DTAs included in the institutions’
regulatory capital were consistent with the limitations defined in the FDIC Rules and
Regulations. However, the FDIC’s communications with FBOP regarding this matter
were generally informal and not always documented.



                                             13
Finally, examiners could have expanded their criticisms of North Houston’s and
Madisonville’s CRE concentration risk management practices in the November 2006 and
March 2007 examination reports. Expanded criticism in this regard may have influenced
the institutions to curb their CRE loan growth in late 2007 and early 2008 and implement
stronger controls before the real estate market began to decline.

Supervisory History

The FDIC and TDB conducted five onsite risk management examinations and two
visitations of North Houston between October 2004 and the institution’s failure. In
addition, the FDIC and TDB conducted five onsite examinations and one visitation of
Madisonville between March 2004 and the institution’s failure. Table 5 summarizes key
supervisory information pertaining to these examinations and visitations.

Table 5: Onsite Examinations and Visitations of North Houston and Madisonville
                                                                                              Informal or
 Institution      Examination        Type of                              Supervisory       Formal Actions
 Name              Start Date     Examination               Regulator       Ratings             Taken*
 North             10/25/2004    Risk Management              FDIC          111122/1             None
 Houston           12/05/2005 R   isk Management              TDB           112112/1             None
                   11/13/2006 R   isk Management              FDIC          111121/1             None
                   07/21/2008 R   isk Management              TDB           433243/3             MOU
                   12/09/2008 Vi       sitation               FDIC             -                   -
                   04/13/2009 Vi       sitation             FDIC/TDB           -                 None
                   07/27/2009 R   isk Management            FDIC/TDB       555555/5**         C&D Issued
 Madisonville       03/29/2004 R   isk Management             FDIC          121121/1             None
                    08/29/2005    Risk Management             TDB           111122/1             None
                    03/29/2007 R   isk Management             FDIC          111121/1             None
                    12/29/2008    Risk Management             TDB           333333/3             MOU
                    12/26/2008 Vi       sitation              FDIC             -                   -
                    07/27/2009    Risk Management           FDIC/TDB       555555/5**          C&D Issued
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
          on the Net system (ViSION) for North Houston and Madisonville.
* Informal enforcement actions often take the form of Bank Board Resolutions or Memoranda of
Understanding (MOU). Formal enforcement actions often take the form of Cease and Desist (C&D) orders,
but under severe circumstances can also take the form of insurance termination proceedings.
** Final examination reports were not issued for these examinations. However, the FDIC processed interim
ratings downgrades in September 2009 based on the preliminary results of the examinations.

The FDIC’s offsite monitoring procedures generally consisted of contacting the
institutions’ management from time to time to discuss current and emerging business
issues and using automated tools15 to help identify potential supervisory concerns. The

15
  The FDIC uses various offsite monitoring tools to help assess the financial condition of institutions. Two
such tools are the Statistical CAMELS Offsite Rating system and the Growth Monitoring System. Both
tools use statistical techniques and Call Report data to identify potential risks, such as institutions likely to
receive a supervisory downgrade at the next examination or institutions experiencing rapid growth and/or a
funding structure highly dependent on non-core funding sources.



                                                       14
FDIC’s offsite monitoring did not identify serious problems at the institutions prior to the
decline in the preferred shares of Fannie Mae and Freddie Mac. The December 2008
visitation of North Houston focused on liquidity and a $4 million loan to a non-bank
subsidiary of FBOP that was part of the September 2008 capital infusions. The April
2009 visitation of North Houston focused on asset quality. The December 2008 visitation
of Madisonville, which was conducted in conjunction with the December 2008 state
examination, focused primarily on capital and liquidity, but also included coverage of the
institution’s asset quality.

Based on the results of North Houston’s July 2008 examination (which was transmitted to
the institution on January 9, 2009) and Madisonville’s December 2008 examination
(which was transmitted to the institution on May 1, 2009), the TDB downgraded each
institution’s composite rating to a “3.” In addition, the FDIC and TDB also determined
that MOUs were warranted to clearly define the regulatory expectations for restoring the
institutions to a safe and sound condition and to define certain management goals and
corrective actions. North Houston’s and Madisonville’s MOUs became effective on May
8, 2009 and June 19, 2009, respectively. Among other things, the MOUs required that the
institutions:

   •   Submit a written capital plan to achieve and maintain Tier 1 leverage capital and
       total risk-based capital ratios of 8 percent and 12 percent, respectively.

   •   Develop and follow a plan to reduce the institutions’ dependence on non-core
       funding sources.

   •   Adopt a risk management program for identifying, measuring, monitoring, and
       controlling CRE concentrations commensurate with the risk profile of the
       institutions and the December 2006 interagency guidance, entitled Concentrations
       in Commercial Real Estate Lending, Sound Risk Management Practices.

Based on the preliminary results of the July 2009 examinations of the institutions,
examiners determined that the actions taken by North Houston and Madisonville to
address the provisions of the MOUs were not adequate. Examiners also determined that
the financial condition of the institutions had deteriorated significantly following the prior
examinations. On September 16, 2009, the FDIC and TDB notified North Houston and
Madisonville that the institutions’ composite ratings were being downgraded to a “5” and
that the viability of the institutions was in serious jeopardy. The notification also advised
the institutions that the FDIC had determined, on a preliminary basis, that the capital
infusions received from FBOP on September 30, 2008 were ineligible for treatment as
regulatory capital. On October 7, 2009, the FDIC and TDB implemented C&Ds for both
institutions that required, among other things, Tier 1 Capital and total risk-based capital
ratios of at least 9 percent and 12 percent, respectively; contingency funding plans; and
plans to reduce credit concentrations. TDB closed both institutions on October 30, 2009
because the institutions were not operating with sufficient capital to support their
operations.




                                              15
Oversight of Fannie Mae and Freddie Mac Investments

Like many insured institutions, North Houston and Madisonville invested in the preferred
shares of Fannie Mae and Freddie Mac because the securities were generally viewed as
having low credit risk at the time the investments were made. The institutions purchased
the preferred shares in November and December 2007, between onsite examinations of the
institutions. In addition, the FDIC’s offsite monitoring tools did not flag the investments
as a concern. According to information in the FDIC’s ViSION system, an FDIC examiner
contacted Madisonville’s President and CEO on February 11, 2008 to discuss current and
prospective issues that could impact the institution. During the discussion, the President
and CEO advised the examiner that the institution had recently purchased preferred shares
of Fannie Mae and Freddie Mac. The examiner recommended that the President and CEO
closely monitor the value of the securities for potential other-than-temporary-impairment
(OTTI) charges. However, no serious concerns regarding the securities were raised.
ViSION did not contain information regarding discussions between the FDIC and North
Houston during late 2007 and early 2008.

As previously discussed, the Treasury, Federal Reserve, and Congress announced a
number of initiatives in July 2008 in response to concerns over the financial condition of
Fannie Mae and Freddie Mac. Although these initiatives resulted in a brief price recovery
for the preferred shares of the GSEs, the shares resumed their decline in August 2008. At
that time, the FDIC recognized that institutions holding preferred shares in Fannie Mae
and Freddie Mac could be required to recognize OTTI charges, causing some institutions
to fall below Well Capitalized for PCA purposes. To address this risk, the Chicago
Regional Office, working in coordination with the Washington Office, began a region-
wide analysis in August 2008 to identify insured institutions with exposure to Fannie Mae
and Freddie Mac preferred shares. As part of this effort, regional office personnel worked
with representatives of North Houston and Madisonville to assess the impact that the
securities were having on the institutions’ capital. On September 7, 2008, Fannie Mae and
Freddie Mac were placed in conservatorship, resulting in North Houston and Madisonville
recognizing significant OTTI charges as of September 30, 2008. The FDIC immediately
began to work with FBOP to assess its plans for recapitalizing its subsidiary institutions,
including North Houston and Madisonville.

The FDIC’s supervisory oversight of the risks associated with North Houston’s and
Madisonville’s investments in Fannie Mae and Freddie Mac preferred shares was
generally reasonable. However, the failures of North Houston and Madisonville offer an
important lesson learned with respect to investment securities that are not explicitly
backed by the full faith and credit of the U.S. government. That is, when institutions
make significant investments in such securities, the FDIC should ensure that institutions
establish and implement sound risk management controls, such as prudent investment
limits relative to capital and exit strategies. In the case of North Houston and
Madisonville, the amounts of Fannie Mae and Freddie Mac preferred shares acquired
exceeded the institutions’ capital as of December 31, 2007. In addition, the institutions
had not established viable exit strategies in the event that market conditions for the
securities became adverse.



                                            16
Assessment of Capital Infusions

As discussed earlier, FBOP provided capital infusions to North Houston and Madisonville
on September 30, 2008 totaling $22.4 million and $7.8 million, respectively. While the
FDIC took appropriate steps to support its final determination that the capital infusions
were ineligible for treatment as regulatory capital, the FDIC’s final determination could
have been made sooner. In addition, despite the significance of the infusions to the capital
positions of both institutions, state examination reports transmitted to the institutions in
January 2009 and May 2009 did not note that the infusions were under review by the
FDIC. See Appendix 1 for a detailed timeline of events pertaining to the capital infusions.

Timeliness of the FDIC’s Final Determination on the Capital Infusions

On November 21, 2008, the Chicago Regional Office formally notified the Boards of
North Houston and Madisonville that the FDIC was reviewing the capital infusions
received on September 30, 2008 to determine whether they should be accorded treatment
as regulatory capital. The notification was based on the concern that several of the FBOP
subsidiary institutions that had made loans to facilitate the capital infusions also received
capital in return. On November 25, 2008, the FDIC’s Case Manager for North Houston
and Madisonville notified FBOP’s Chief Financial Officer (CFO) that the FDIC’s Chief
Accountant (Chief Accountant) had made a preliminary determination that the capital
infusions should not qualify as regulatory capital. However, the Case Manager advised
the CFO that the matter was still being reviewed by the FDIC and that a final
determination had not yet been made. The Case Manager advised us that the Boards of
North Houston and Madisonville were also reminded during meetings held on March 19,
2009 that the FDIC was continuing its review of the capital infusions. Finally, the
President and CEO of North Houston acknowledged that the regulators were continuing to
review the institution’s $22.4 million capital infusion during a July 16, 2009 meeting with
an FDIC examiner.

During the 6 months that followed the FDIC’s November 2008 preliminary determination,
limited progress was made by the FDIC in reaching a final determination on the capital
infusions due to other high priority concerns with FBOP and the general deterioration in
the banking sector. On May 14, 2009, the Chicago Regional Office sent a memorandum
to the Chief Accountant describing the nature of the capital infusions and the reasons why
the infusions should be disallowed for regulatory capital purposes. The memorandum
noted that the Chief Accountant had already indicated during the fall of 2008 that the
infusions would not qualify as regulatory capital and requested formal concurrence on the
matter. On July 13, 2009, the Chicago Regional Office again requested the Chief
Accountant’s written concurrence on the May 14, 2009 memorandum. On July 15, 2009,
the Chief Accountant provided the Chicago Regional Office with a formal opinion
concluding that the capital infusions should not be recognized as regulatory capital.

In the weeks that followed, the FDIC consulted with representatives of the OCC, Federal
Reserve, TDB, and IDFPR to reach consensus on the treatment of the capital infusions.
After reaching consensus, the regulators met with representatives of FBOP on August 19,
2009 to discuss the preliminary determination that the capital infusions did not qualify as


                                             17
regulatory capital. The FBOP representatives disagreed with the preliminary
determination and indicated that they believed the matter had already passed regulatory
scrutiny as there had been no discussion of it since November 2008. However, the FDIC
representatives indicated that it was made clear to the institutions that the capital infusions
were an open item. The FDIC separately briefed the Boards of North Houston and
Madisonville on the preliminary determination on September 8, 2009. During these
meetings, the Boards disagreed with the preliminary determination and requested a
meeting with DSC officials in the Washington Office.

On September 17, 2009, FBOP officials met with DSC officials in the Washington Office
to discuss their disagreement regarding the preliminary determination. FBOP officials
indicated during the meeting that they would immediately attempt to refinance the loans
related to the capital infusions with outside lenders so that the funds could be recognized
as regulatory capital. The FBOP representatives also requested that the FDIC delay
making a final determination on the capital infusions because an unfavorable
determination could negatively impact ongoing efforts to raise needed capital.

On September 24, 2009, a DSC official formally notified FBOP that $10 million of the
$40 million in capital infusions had been incorrectly recognized as regulatory capital by
FBOP’s subsidiary institutions16 and that FBOP should amend its Call Reports as
appropriate. The notification also indicated that the FDIC and the OCC continued to be
concerned about the substance of the remaining $30 million in capital infusions and that a
determination regarding its eligibility for regulatory capital purposes would not be
deferred. Unlike the $10 million portion of the capital infusions, a decision to disallow the
$30 million portion was a safety and soundness determination delegated only to the DSC
Director.17 On September 25, 2009, the DSC Director formally notified the Boards of
North Houston and Madisonville of a final determination that the $30 million was not
eligible for treatment as regulatory capital and directed the institutions to amend their Call
Reports accordingly. Although FBOP attempted to refinance the loans related to the
capital infusions with an independent lender in order to recognize the funds as regulatory
capital, these efforts were not completed before the institutions were closed on
October 30, 2009.

FBOP and its subsidiary institutions could have been more proactive in addressing the
FDIC’s concerns pertaining to the capital infusions, particularly in light of the preliminary
determination that was communicated to FBOP in November 2008 and subsequent
reminders that the infusions remained under review. However, the FDIC’s final
determination on this matter, particularly with respect to the $10 million portion of the
capital infusions, could have been made sooner. An earlier final determination may have

16
   See the discussion under the Impact of Securities Losses on Regulatory Capital in the Causes of Failures
and Material Losses section of this report for a description of the FDIC’s final determination with respect to
the $10 million and $30 million portions of the capital infusions.
17
   Section 325.5(b) of the FDIC Rules and Regulations states that the DSC Director may, if the Director
finds that a particular Tier 1 or Tier 2 Capital component or balance sheet entry or account has
characteristics or terms that diminish its contribution to an insured depository institution’s ability to absorb
losses, require the deduction of all or a portion of such component, entry, or account from Tier 1 or Tier 2
Capital.


                                                       18
affected the FDIC’s supervisory strategy for the institutions, as disallowing the infusions
for regulatory capital purposes would have rendered North Houston insolvent and
Madisonville Significantly Undercapitalized. Such capital positions would have triggered
restrictions on wholesale funding sources, possible formal enforcement actions, and in the
case of North Houston, the potential closure of the institution. An earlier final
determination also may have prompted more immediate corrective action by FBOP to
address the matter.

Treatment of Capital Infusions in State Examination Reports

As previously discussed, the FDIC formally notified North Houston and Madisonville in
November 2008 that the capital infusions were under review. The FDIC’s Case Manager
also notified FBOP’s CFO in November 2008 that a preliminary determination had been
made that the capital infusions were ineligible for regulatory capital purposes. In addition,
the Case Manager informed us that the institutions’ Boards were orally advised in March
2009 that the capital infusions continued to be reviewed by the FDIC. Further, the
President and CEO of North Houston acknowledged in a July 16, 2009 meeting that the
institution’s $22.4 million capital infusion continued to be reviewed by regulators.
Although the state examination reports transmitted to North Houston and Madisonville on
January 9, 2009 and May 1, 2009, respectively, referenced the September 2008 capital
infusions, the reports did not raise concern regarding the infusions or mention that the
infusions were under review by the FDIC. Given the criticality of the capital infusions to
the institutions’ viability, it would have been prudent for the TDB to have included such
concerns in the examination reports. Such action would have provided another avenue for
instilling urgency in the institutions’ Boards to pursue corrective measures.

Deferred Tax Assets

As previously discussed, the FDIC formally notified the institutions in a November 21,
2008 letter that their September 30, 2008 Call Reports appeared to include excessive
amounts of DTA as regulatory capital. The DTA amounts recognized by North Houston
and Madisonville represented 56 percent and 59 percent, respectively, of their Tier 1
Capital, exceeding the 10-percent limitation defined in the FDIC Rules and Regulations.
On November 24, 2008, FBOP sent a letter to the Chicago Regional Office on behalf of
the institutions requesting regulatory relief with respect to the 10-percent limitation. The
request noted that the OCC had already approved a similar request for FBOP’s national
bank subsidiaries18 and referenced a Joint Release issued on September 7, 2008 in which
federal banking regulators indicated an intent to work with institutions adversely affected
by GSE stock investments. Notwithstanding this request, North Houston and
Madisonville modified their Call Reports in December 2008 to comply with the 10-
percent limitation.

18
  In a November 5, 2008 letter, the OCC notified FBOP that its subsidiary national banks must deduct from
Tier 1 Capital only the amount of DTAs that exceed what the banks could reasonably expect to realize
within 4 years of the quarter end Call Report, based on estimates of future taxable income for that year. The
OCC’s relief was effective until June 30, 2009, or the receipt of funds under the Capital Purchase Program
(CPP).


                                                     19
DSC officials in the Chicago Regional Office and Washington Office informed us that the
nature of FBOP’s request was highly unusual and that only the FDIC’s Board of Directors
could have approved such a request. In addition, the FDIC Case Manager advised us that
FBOP was orally informed shortly after the request was received that it was not likely that
the request would be approved. On December 22, 2008, a Madisonville official inquired
about the status of the request. DSC’s Houston Field Office Supervisor advised several
Madisonville officials and FBOP’s CFO that the request would need to be presented to the
FDIC’s Board of Directors and that the Board would not likely consider the matter prior to
February 2009. DSC management officials in the Chicago Regional Office and
Washington Office advised us that, following internal deliberations, they did not support
FBOP’s request and a formal FDIC Board case was not prepared. As previously
discussed, FBOP infused additional capital into North Houston and Madisonville on
December 31, 2008, which helped both institutions return to Well Capitalized positions by
the end of 2008.

The Case Manager advised us that there were periodic oral communications with FBOP
regarding the status of its request. Further, the Case Manager stated that during the April
2009 timeframe, FBOP was informed that it was highly unlikely that the request would be
approved by the FDIC, thereby affording FBOP an opportunity to withdraw its request.
FBOP formally withdrew its request on April 29, 2009.

DSC took appropriate steps to ensure that the amounts of DTAs included in North
Houston’s and Madisonville’s regulatory capital were consistent with the limitations
defined in the FDIC Rules and Regulations. However, the FDIC’s communications with
FBOP regarding this matter were generally informal and not always documented. In this
regard, the Chicago Regional Office recently issued a policy that formalized a prior
expectation that correspondence from institutions be acknowledged in writing.

Supervisory Response to CRE Loan Concentrations

At the time of North Houston’s November 2006 examination and Madisonville’s March
2007 examination, real estate market conditions were generally favorable. In addition,
North Houston’s adversely classified assets were a manageable $9 million (or 19 percent
of Tier 1 Capital and the Allowance for Loan and Lease Losses (ALLL)) and
Madisonville’s adversely classified assets were only $2.7 million (or 9 percent of Tier 1
Capital and the ALLL). Further, both institutions were Well Capitalized and FBOP had
the financial capability of infusing capital and liquidity into the institutions on an as
needed basis. Based on these factors, examiners determined that the overall financial and
operational condition of the institutions was strong and assigned composite ratings and
component ratings for asset quality of “1.”

Although the financial condition of the institutions at the time of the 2006 and 2007
examinations was satisfactory, North Houston and Madisonville had concentrations in
CRE representing 615 percent and 456 percent of total capital, respectively. In addition,
both institutions lacked adequate concentration risk management controls and relied on




                                            20
wholesale funding sources to fund their loans.19 Additionally, in the case of Madisonville,
the institution had plans to significantly grow its loan portfolio during 2007. Examiners
identified North Houston’s and Madisonville’s significant CRE loan concentrations in the
November 2006 and March 2007 examination reports. In addition, examiners made
recommendations to the institutions to improve their concentration monitoring practices.
Examiners determined that the risks associated with the CRE concentrations were
somewhat mitigated by geographic diversification within the institutions’ loan portfolios.

During North Houston’s July 2008 examination and Madisonville’s December 2008
examination, examiners were sharply critical of both institutions’ concentration risk
management practices. Among other things, examiners recommended that the institutions
adopt CRE limits and strategies for reducing CRE concentrations during adverse market
conditions. Examiners also recommended that the institutions develop comprehensive
written CRE policies that comply with the December 2006 guidance entitled,
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices.
By the time of the 2008 examinations, however, North Houston’s and Madisonville’s CRE
concentrations had grown to 848 percent and 824 percent of total capital, respectively.
These increases resulted primarily from significant CRE loan growth that occurred in late
2007 and early 2008.

In retrospect, examiners could have expanded their criticisms of North Houston’s and
Madisonville’s CRE concentrations and weak concentration risk management controls
during the 2006 and 2007 examinations. Specifically, examiners could have downgraded
the institutions’ component ratings for asset quality and/or expanded their
recommendations to include the control improvements described in the 2008 examination
reports. Expanded criticism in this regard may have influenced the institutions to curb
their CRE loan growth in late 2007 and early 2008 and implement stronger controls before
the real estate market began to decline.

Implementation of PCA

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. The section requires that regulators take progressively more severe actions,
known as “prompt corrective actions,” as an institution’s capital level deteriorates. The
purpose of section 38 is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and
Regulations defines the capital measures used in determining the supervisory actions that
will be taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also
establishes procedures for the submission and review of capital restoration plans and for
the issuance of directives and orders pursuant to section 38.


19
  At the time of North Houston’s November 2006 examination, the institution relied heavily upon wholesale
funding sources to fund its CRE loans and maintain liquidity. At the time of Madisonville’s March 2007
examination, the institution relied moderately on wholesale funding sources, but planned to increase its use
of wholesale funding sources later in 2007 to support planned loan growth.


                                                    21
Based on the supervisory actions taken with respect to North Houston and Madisonville,
the FDIC properly implemented applicable PCA provisions of section 38. Table 6
illustrates North Houston’s and Madisonville’s capital levels relative to the PCA
thresholds for Well Capitalized institutions for the quarter ended September 30, 2009, and
for the 4 preceding calendar years.

Table 6: North Houston’s and Madisonville’s Capital Levels
                     Tier 1          Tier 1 Risk-
 Period Ended        Leverage        Based               Total Risk-     PCA Capital Category
                     Capital         Capital             Based Capital
 Well Capitalized    5% or more      6% or more          10% or more
 Thresholds
 North Houston’s Capital Levels
     Dec – 05            12.03            12.96              14.13       Well Capitalized
     Dec – 06            15.10            15.59              16.84       Well Capitalized
     Dec – 07            11.78            11.04              12.52       Well Capitalized
     Dec – 08             6.85             8.79              10.04       Well Capitalized
     Sept – 09            2.23 2.            69              2.69        Critically Undercapitalized
 Madisonville’s Capital Levels
     Dec – 05            14.08            16.37              17.62       Well Capitalized
     Dec – 06            14.81            18.64              19.90       Well Capitalized
     Dec – 07            12.37            13.52              15.21       Well Capitalized
     Dec – 08             7.80             9.56              10.81       Well Capitalized
     Sept – 09            2.92             4.11              5.72        Significantly Undercapitalized
Source: UBPRs for North Houston and Madisonville.

North Houston and Madisonville were considered Well Capitalized until September 2008,
when both institutions incurred significant losses on investments in Fannie Mae and
Freddie Mac. After receiving capital infusions from FBOP on September 30, 2008 and
recognizing large amounts of DTAs in connection with their securities losses, the
institutions reported Well Capitalized positions in their initial September 30, 2008 Call
Reports. In November 2008, both institutions amended their September 30, 2008 Call
Reports at the direction of the FDIC to reduce the amount of DTAs included in their Tier 1
Capital. After making these adjustments, North Houston and Madisonville notified the
FDIC that their capital positions as of September 30, 2008 were actually
Undercapitalized. After receiving additional capital infusions from FBOP on
December 31, 2008, both institutions returned to Well Capitalized positions at year-end
2008.

Although North Houston and Madisonville reported Well Capitalized positions in their
December 31, 2008 Call Reports, the FDIC and TDB determined that the institutions’
capital levels were not commensurate with their risk profiles. As previously discussed,
capital provisions were included in each institution’s MOU requiring that the institutions
maintain capital ratios above the minimum levels for Well Capitalized institutions. In the
months that followed, neither institution was able to raise sufficient capital for their risk
profiles. In addition, examiners noted instances during the July 2009 examination in
which North Houston fell to Adequately Capitalized between Call Report filings, but did
not notify the FDIC as required by Part 325. Examiners noted that North Houston


                                                    22
continued to acquire brokered deposits during these periods in which the institution was
Adequately Capitalized. As previously discussed, the FDIC issued C&Ds for both
institutions in October 2009 that also included capital requirements.

FBOP began exploring options to raise capital at its subsidiary institutions immediately
following its investment losses in Fannie Mae and Freddie Mac in September 2008. These
efforts continued until FBOP’s subsidiary institutions closed on October 30, 2009.
Among other things, FBOP explored obtaining equity and debt investments from various
financial institutions, individual investors, and private equity firms; selling subsidiary
institutions and/or their branches; consolidating banking operations into a single financial
institution; and applying for funds under the CPP described below. However, none of
these efforts were successful.

Capital Purchase Program

On October 3, 2008, the President signed the Emergency Economic Stabilization Act of
2008 into law. Among other things, the Act authorized the Troubled Asset Relief
Program (TARP), which is administered by the Treasury. Under TARP, the Treasury has
implemented the CPP through which the Treasury purchases senior preferred stock (and, if
appropriate, warrants of common stock) from viable institutions of all sizes. The Treasury
issued guidelines for publicly-held financial institutions to apply for funds under the CPP
on October 20, 2008. Guidelines for privately-held institutions, such as FBOP’s
institution subsidiaries, were issued on November 17, 2008. The CPP application period
for publicly-held and privately-held institutions closed on November 14, 2008 and
December 8, 2008, respectively.

Qualifying financial institutions20 were permitted to apply for funds under the CPP after
consulting with their primary federal regulator. After receiving an application for CPP
funds, primary federal regulators used a standardized process established by the Treasury
for evaluating the application. The evaluation process contained viability criteria (e.g.,
CAMELS ratings, capital levels, selected asset performance ratios, Community
Reinvestment Act ratings) for use in assessing the applications. Applications that did not
satisfy the viability criteria were forwarded to an interagency CPP Council comprised of
senior officials from the FDIC, the OCC, the Federal Reserve, and the Office of Thrift
Supervision. Based on its review, the CPP Council could have (1) recommended approval
of an application to the TARP Investment Committee,21 (2) requested more information
from the applicant, or (3) recommended withdrawal of the CPP application.22


20
   Qualifying financial institutions refer to private and public U.S.-controlled banks, savings associations,
bank holding companies, and certain savings and loan holding companies (engaged exclusively in financial
activities) that are deemed healthy and viable.
21
   The TARP Investment Committee is comprised of a group of senior Treasury officials. This committee
may grant preliminary approval of CPP applications, in which case the application is forwarded to the
Assistant Secretary for Financial Stability within the Treasury. The Assistant Secretary has final authority to
approve CPP applications.
22
   According to the Initial Report to the Congress by the Office of the Special Inspector General for the
Troubled Asset Relief Program, dated February 6, 2009.


                                                      23
Because the FDIC was not the primary federal regulator of either FBOP or its largest
subsidiary institution, the FDIC was not directly involved in processing FBOP’s CPP
application.23 FBOP submitted an initial application for CPP funds in October 2008.
However, the application was deferred as the Treasury had not yet issued CPP guidelines
for privately-held institutions. After the Treasury issued guidelines for privately-held
institutions, FBOP consulted with the Federal Reserve and the OCC and submitted an
amended application for CPP funds on December 2, 2008. The amended application
requested an investment of $544 million in senior preferred stock at the holding company
level. As a condition of obtaining the CPP funds, FBOP committed to raising an
additional $100 million in capital for its subsidiary institutions. After consideration of the
application, and in recognition of the significant impact that the GSE write-downs had on
FBOP’s subsidiary institutions, the OCC supported the application.

On December 17, 2008, the CPP Council reviewed FBOP’s application for CPP funds.
On January 14, 2009, the CPP Council reviewed a slightly modified version of FBOP’s
application in which FBOP committed to raising additional capital. On both occasions,
the CPP Council raised concerns about the content of the application, requested additional
information, and deferred making a recommendation. In the months that followed, the
FDIC and the OCC communicated regularly with FBOP regarding its efforts to raise
needed capital. FBOP’s inability to secure a definitive agreement for private capital,
together with a deterioration in the financial condition of its subsidiary institutions, made
the possibility of securing CPP funds less likely as time passed. FBOP was ultimately not
approved for CPP funding.


Corporation Comments
We issued a draft of this report on May 5, 2010. DSC management subsequently provided
us with additional information for our consideration. We made certain changes to our
report based on this information, as appropriate. On May 19, 2010, the Director, DSC,
provided a written response to the draft report. The response is presented in its entirety as
Appendix 5 of the report. In its response, DSC reiterated the OIG’s conclusions regarding
the causes of failure for North Houston and Madisonville. DSC also noted that it had
worked cooperatively with the OCC, the Federal Reserve, and the TDB in coordinating
the supervision of FBOP and its subsidiary institutions.




23
  FBOP’s primary federal regulator was the Federal Reserve. FBOP’s largest subsidiary institution was the
California National Bank. The primary federal regulator of the California National Bank was the OCC.


                                                   24
                                                                                       Appendix 1

       Timeline of Key Events Related to the September 2008
                         Capital Infusions

Date                 Management Event

September 30, 2008   North Houston and Madisonville notify the FDIC that the institutions have
                     received capital infusions from FBOP totaling $22.4 million and $7.8 million,
                     respectively.

November 12, 2008    The Case Manager requests that the regional accountant in the Chicago Regional
                     Office (Chicago Regional Accountant) review the transactions surrounding the
                     capital infusions to determine whether the infusions should be recognized as
                     regulatory capital.

November 21, 2008    The Chicago Regional Director formally notifies the Boards of North Houston and
                     Madisonville that the capital infusions are being reviewed by the FDIC to
                     determine whether they should be accorded treatment for regulatory capital
                     purposes.

November 25, 2008    The Chicago Regional Accountant advises the Case Manager that the FDIC’s
                     Chief Accountant has reviewed information pertaining to the capital infusions and
                     discussed the matter with senior DSC executives in the Washington Office. Based
                     on this analysis, it was the Chief Accountant’s preliminary opinion that the
                     infusions should not be recognized as regulatory capital.

November 25, 2008    In response to an inquiry from FBOP’s CFO regarding the FDIC’s review of the
                     capital infusions, the Case Manager advises the CFO that the FDIC’s Chief
                     Accountant has made a preliminary determination that the capital infusions should
                     not be treated as regulatory capital. However, the Case Manager adds that the
                     matter continues to be reviewed and that a final decision has not yet been made.

November 26, 2008    The Case Manager requests that the CFO provide a written explanation describing
                     why the capital infusions should be recognized as regulatory capital. The Case
                     Manager advises the CFO that the explanation will be considered by the FDIC
                     before a final determination is made. According to the Case Manager, a brief
                     written explanation was provided by the CFO. However, DSC was unable to
                     locate a copy of the explanation for our review.

December 9, 2008     The Chicago Regional Accountant notifies the Chief Accountant that the Chicago
                     Regional Office is preparing a formal case to the DSC Director to disallow, for
                     regulatory capital purposes, the capital infusions. The notification includes a
                     detailed written analysis describing why the capital infusions should be disallowed
                     as regulatory capital and requests the Chief Accountant’s concurrence with the
                     analysis. According to staff in the Chicago Regional Office, the Chief Accountant
                     did not respond to this request.

December 9, 2008     The FDIC conducts a visitation of North Houston targeting capital and liquidity.
                     The visitation includes a review of a $4 million loan made by North Houston to a
                     non-bank subsidiary in connection with the capital infusion.




                                                25
                                                                                          Appendix 1

         Timeline of Key Events Related to the September 2008
                           Capital Infusions

Date                Management Event

December 23, 2008   In response to an inquiry from the Houston Field Office Supervisor regarding the
                    status of a final determination on the capital infusion, the Case Manager states that a
                    memorandum to the Washington Office is being drafted.

February 3, 2009    The Case Manager advises DSC officials in the Chicago Regional Office and
                    Washington Office that she needs to prepare a memorandum for the DSC Director
                    for purposes of disallowing the capital infusions.

March 19, 2009      According to the Case Manager, the Boards of North Houston and Madisonville are
                    orally notified that the capital infusions continue to be reviewed by the FDIC.

May 14, 2009        The Chicago Regional Office sends the Chief Accountant a memorandum describing
                    the nature of the capital infusions and the rationale for disallowing the infusions for
                    regulatory capital purposes. The memorandum notes that the Chief Accountant
                    already provided a preliminary opinion on the matter in November 2008 and requests
                    the Chief Accountant’s formal concurrence.

June 29, 2009       The Case Manager notifies Chicago Regional Office management that a higher
                    priority needs to be placed on resolving the capital infusions matter because
                    examinations of North Houston and Madisonville are scheduled to begin the
                    following month.

July 13, 2009       The Chicago Regional Accountant again notifies the Chief Accountant that the
                    region’s management is requesting written concurrence on the May 14, 2009
                    memorandum.

July 15, 2009       The Chief Accountant provides the Chicago Regional Office with a formal opinion
                    that the capital infusions should not be recognized as regulatory capital.

July 16, 2009       The Chicago Regional Office provides a copy of the Chief Accountant’s formal
                    opinion to OCC representatives for their review and concurrence.

July 31, 2009       OCC officials advise the Chicago Regional Office that the OCC agrees with the
                    Chief Accountant’s formal opinion that the capital infusions should not qualify as
                    regulatory capital.




                                                 26
                                                                                             Appendix 1

         Timeline of Key Events Related to the September 2008
                           Capital Infusions

Date                 Management Event

August 13, 2009      FDIC officials hold a conference call with representatives of the OCC and the
                     Federal Reserve to discuss the capital infusions. The participants agree that the issue
                     needs to be discussed with FBOP and its subsidiary institutions as soon as possible.

August 19, 2009      Representatives of the FDIC, OCC, and Federal Reserve meet with representatives
                     of FBOP to inform them of a preliminary determination that the capital infusions do
                     not qualify as regulatory capital. The regulators note that a final determination will
                     be made by the DSC Director and that the final determination could come at any
                     time. The regulators provide FBOP representatives with an analysis indicating that
                     if the capital infusions are disallowed, North Houston will become insolvent and
                     Madisonville will fall to a Significantly Undercapitalized position. Given the high
                     liquidity risk profiles for both institutions, the regulators request a corrective action
                     plan. The FBOP representatives indicate that they believed this matter had already
                     been resolved as there had been no communication regarding the issue since
                     November 2008. The FDIC representatives indicated that it was made clear to the
                     institutions that the matter was an open item. FBOP representatives disagree with
                     the preliminary determination.

August 27, 2009      The Chicago Regional Director and Chief Accountant submit a formal request to the
                     DSC Director to disallow the capital infusions for regulatory capital purposes.

September 8, 2009    The FDIC meets with the Boards of North Houston and Madisonville to discuss,
                     among other things, the impact of a decision to disallow the capital infusions. The
                     FDIC officials indicate that the DSC Director’s decision on this matter could come at
                     any time. During the meetings, both Boards disagree with the FDIC’s preliminary
                     determination.

September 17, 2009   Representatives of FBOP, including its Chairman and CEO, meet with DSC officials
                     in the Washington Office to explain why the capital infusions should qualify as
                     regulatory capital. However, the DSC officials are not persuaded to change their
                     preliminary determination. During the meeting, FBOP officials indicate that they
                     will immediately attempt to refinance the loans related to the capital infusions with
                     outside lenders so that the funds could be recognized as regulatory capital. The
                     FBOP representatives indicate that the loans could be refinanced within 30 days.
                     The FBOP representatives also request that the FDIC delay making a final
                     determination on the capital infusions because an unfavorable determination on this
                     matter could negatively impact ongoing efforts to raise needed capital.




                                                   27
                                                                                            Appendix 1

         Timeline of Key Events Related to the September 2008
                           Capital Infusions


Date                 Management Event

September 24, 2009   The FDIC formally notifies FBOP that $10 million of the $40 million in capital
                     infusions was erroneously recognized as regulatory capital in the Call Reports of
                     FBOP’s subsidiary institutions. The notification directs FBOP to have its subsidiary
                     institutions amend all affected Call Reports to correct the deficiencies. The
                     notification also states that if FBOP can refinance the loans pertaining to the
                     remaining $30 million in capital infusions using lenders independent of FBOP, the
                     proceeds can be recognized as regulatory capital, but only from the date of
                     refinancing going forward. Prior Call Reports would still need to be modified if the
                     DSC Director determines that the infusions are ineligible for regulatory capital.
                     Finally, the notification advises FBOP that the FDIC will not defer a determination
                     on the capital infusions and that prospective equity investors in FBOP should be
                     advised that the capital infusions are being reviewed by the FDIC to determine their
                     eligibility for regulatory capital purposes.

September 25, 2009   The DSC Director formally notifies North Houston and Madisonville that the capital
                     infusions are not eligible for treatment as regulatory capital and directs the
                     institutions to amend their Call Reports accordingly.

October 23, 2009     The President and CEO of Madisonville contacts the Chicago Regional Office to
                     advise that the loans subject to the ineligible capital determinations are in the process
                     of being refinanced and this effort should be completed by the end of October 2009.
                     However, the refinancing efforts are not completed before the subsidiary institutions
                     are closed.

October 30, 2009     North Houston and Madisonville are closed.




                                                  28
                                                                                 Appendix 2

                     Objectives, Scope, and Methodology


Objectives

We performed this audit in accordance with section 38(k) of the FDI Act, which provides,
in general, that if a deposit insurance fund incurs a material loss with respect to an insured
depository institution, the Inspector General of the appropriate federal banking agency
shall prepare a report to that agency reviewing the agency’s supervision of the institution.
The FDI Act requires that the report be completed within 6 months after it becomes
apparent that a material loss has been incurred.

Our audit objectives were to (1) determine the causes of the institutions’ failures and
resulting material losses to the DIF and (2) evaluate the FDIC’s supervision of the
institutions, including implementation of the PCA provisions of section 38.

We conducted this performance audit from February through May 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of North Houston’s and Madisonville’s
operations from December 2005 until their failures on October 30, 2009. Our review also
entailed an evaluation of the regulatory supervision of the institutions over the same
period.

To achieve the objectives, we performed the following audit procedures:

     •   Analyzed key documentation, including:

           •   Examination and visitation reports issued by the FDIC and TDB between
               2005 and 2009.

           •   Institution data in Call Reports, UBPRs, and other relevant reports.

           •   FDIC and TDB correspondence.

           •   Reviewed formal and informal actions taken by the FDIC and TDB.

           •   Pertinent FDIC regulations, policies, procedures, and guidance.

    •    Interviewed DSC examination staff in the Washington Office, the Chicago
         Regional Office, and the Houston Field Office.

                                              29
                                                                               Appendix 2

                    Objectives, Scope, and Methodology


    •   Interviewed TDB examination staff to obtain their perspectives on the failures and
        to discuss their role in the supervision of the institutions.

    •   Spoke with OCC officials to obtain their perspective on certain supervisory
        matters.

    •   Coordinated our work the Treasury OIG’s material loss review of the national
        bank subsidiaries in the FBOP organization.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand North Houston’s and
Madisonville’s management controls pertaining to causes of failures and material losses as
discussed in the body of this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and testimonial
evidence to corroborate data obtained from systems that were used to support our audit
conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs Executive
Branch agencies to develop a customer-focused strategic plan, align agency programs and
activities with concrete missions and goals, and prepare and report on annual performance
plans. For this material loss review, we did not assess the strengths and weaknesses of
DSC’s annual performance plan in meeting the requirements of the Results Act because
such an assessment is not part of the audit objectives. DSC’s compliance with the Results
Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and FDIC Rules and Regulations. The
results of our tests were discussed, where appropriate, in the report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.




                                             30
                                                                                    Appendix 3

                                  Glossary of Terms
Term                Definition
Adversely           Assets subject to criticism and/or comment in an examination report.
Classified Assets   Adversely classified assets are allocated on the basis of risk (lowest to
                    highest) into three categories: Substandard, Doubtful, and Loss.
Affiliate           Under section 23A of the Federal Reserve Act (12 U.S.C. section 371c), an
                    affiliate generally includes, among other things, a bank subsidiary, or a
                    company that (1) controls the bank and any other company that is
                    controlled by the company that controls the bank, (2) is sponsored and
                    advised on a contractual basis by the bank, or (3) is controlled by or for the
                    benefit of shareholders who control the bank or in which a majority of
                    directors hold similar positions in the bank.
Allowance for       The ALLL is an estimate of uncollectible amounts that is used to reduce
Loan and Lease      the book value of loans and leases to the amount that is expected to be
Losses (ALLL)       collected. It is established in recognition that some loans in the
                    institution’s overall loan and lease portfolio will not be repaid. Boards of
                    directors are responsible for ensuring that their institutions have controls in
                    place to consistently determine the allowance in accordance with the
                    institutions' stated policies and procedures, generally accepted accounting
                    principles, and supervisory guidance.
Call Report         Reports of Condition and Income, often referred to as Call Reports,
                    include basic financial data for insured commercial banks in the form of a
                    balance sheet, an income statement, and supporting schedules. According
                    to the Federal Financial Institutions Examination Council’s (FFIEC)
                    instructions for preparing Call Reports, national banks, state member
                    banks, and insured nonmember banks are required to submit a Call Report
                    to the FFIEC’s Central Data Repository (an Internet-based system used for
                    data collection) as of the close of business on the last day of each calendar
                    quarter.
Cease and Desist    A C&D is a formal enforcement action issued by a financial institution
Order (C&D)         regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
                    stop an unsafe or unsound practice or a violation of laws and regulations.
                    A C&D may be terminated when the bank’s condition has significantly
                    improved and the action is no longer needed or the bank has materially
                    complied with its terms.
Concentration       A concentration is a significantly large volume of economically related
                    assets that an institution has advanced or committed to a certain industry,
                    person, entity, or affiliated group. These assets may, in the aggregate,
                    present a substantial risk to the safety and soundness of the institution.
Credit Rating       An indicator of the credit risk of one or more securities assigned by a
                    nationally recognized statistical rating organization, such as Moody’s
                    Investors Service, Standard & Poor’s Corporation, or Fitch Investors
                    Service. In general, a credit rating of AA indicates that the underlying
                    obligator has a very strong capacity to meet its financial commitments, but
                    not as strong as the highest rating of AAA.



                                               31
                                                                                Appendix 3

                             Glossary of Terms

Term             Definition
Deferred Tax     DTAs are assets that reflect, for reporting purposes, amounts that will be
Asset (DTA)      realized as reductions of future taxes or as future receivables from a
                 taxing authority. DTAs may arise because of specific limitations
                 requiring that certain net operating losses or tax credits be carried
                 forward if they cannot be used to recover taxes previously paid. These
                 “tax carryforwards” are realized only if the institution generates sufficient
                 future taxable income during the carryforward period.

                 Effective April 1, 1995, the FDIC Capital Maintenance Regulation (Part
                 325) established limits on the amount of certain DTAs that may be
                 included in Tier 1 Capital for risk-basked and leverage capital purposes
                 for state, nonmember banks. Under the Part 325, specifically section
                 325.5(g), for regulatory purposes, DTAs that are dependent upon future
                 taxable income are limited to the lesser of: (1) the amount of such DTAs
                 that the institution expects to realize within 1 year of the quarter end
                 report date, based on its projection of future taxable income for that year,
                 or (2) 10 percent of Tier 1 Capital before certain deductions are included.
Fannie Mae and   Fannie Mae and Freddie Mac are shareholder-owned corporations with
Freddie Mac      government charters. The organizations play a critical role in the U.S.
                 home mortgage market by purchasing home mortgages from original
                 lenders, repackaging them as mortgage-backed securities (MBSs), and
                 either selling or holding them in their investment portfolios. Fannie Mae
                 and Freddie Mac purchased about 80 percent of all new home mortgages
                 in the United States during 2008, and their combined investment
                 portfolios held mortgage assets valued at $1.5 trillion as of June 30, 2008.
Financial        A financial entity engaged in a broad range of banking-related activities,
Holding          created by the Gramm-Leach-Bliley Act of 1999. These activities
Company          include: insurance underwriting, securities dealing and underwriting,
                 financial and investment advisory services, merchant banking, issuing or
                 selling securitized interests in bank-eligible assets, and generally
                 engaging in any non-banking activity authorized by the Bank Holding
                 Company Act. The Federal Reserve Board is responsible for supervising
                 the financial condition and activities of financial holding companies.
Nonaccrual       The status of an asset, often a loan, which is not earning the contractual
Status           rate of interest in the loan agreement, due to financial difficulties of the
                 borrower. Typically, interest accruals have been suspended because full
                 collection of principal is in doubt, or interest payments have not been
                 made for a sustained period of time. Loans with principal and interest
                 unpaid for at least 90 days are generally considered to be in a nonaccrual
                 status.




                                           32
                                                                                   Appendix 3

                                Glossary of Terms

Term                Definition
Peer Group          Institutions are assigned to 1 of 15 peer groups based on asset size,
                    number of branches, and whether the institution is located in a
                    metropolitan or non-metropolitan area. North Houston’s peer group
                    included insured commercial institutions with assets between
                    $300 million and $1 billion. Madisonville’s peer group included insured
                    commercial institutions with assets between $100 million and
                    $300 million and two or fewer full-service banking offices and not
                    located in a metropolitan statistical area.
Preferred Shares    Preferred shares (or stock) are a special equity securities having
                    characteristics of both equity and debt instruments. Preferred shares are
                    senior in priority to common shares, but subordinate to bonds. Preferred
                    shares typically do not have voting rights, but the shares often have
                    priority over common shares in the payment of dividends and upon
                    liquidation. Preferred shares may carry a dividend that is paid prior to any
                    dividends to common stockholders.
Prompt              The purpose of PCA is to resolve the problems of insured depository
Corrective Action   institutions at the least possible long-term cost to the Deposit Insurance
(PCA)               Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code
                    of Federal Regulations, section 325.101, et. seq., implements section 38,
                    Prompt Corrective Action, of the FDI Act, 12 United States Code section
                    1831(o), by establishing a framework for determining capital adequacy
                    and taking supervisory actions against depository institutions that are in
                    an unsafe or unsound condition. The following terms are used to
                    describe capital adequacy: (1) Well Capitalized, (2) Adequately
                    Capitalized, (3) Undercapitalized, (4) Significantly Undercapitalized, and
                    (5) Critically Undercapitalized.
Risk-based          Appendix A to Part 325—Statement of Policy on Risk-Based Capital—
Capital Rules       defines the FDIC’s risk-based capital rules. Appendix A states an
                    institution’s balance sheet assets and credit equivalent amounts of off-
                    balance sheet items are assigned to broad risk categories according to the
                    obligor or, if relevant, the guarantor or the nature of the collateral. The
                    aggregate dollar amount in each category is then multiplied by the risk
                    weight assigned to that category. The resulting weighted values from
                    each of the four risk categories are added together and this sum is the
                    risk-weighted assets total that, as adjusted, comprises the denominator of
                    the risk-based capital ratio. The institution’s qualifying total capital base
                    is the numerator of the ratio.




                                              33
                                                                               Appendix 3

                             Glossary of Terms

Term             Definition
Section 23A of   Section 23A: (1) establishes limits on the amount of ‘‘covered
the Federal      transactions’’ between a member bank and its affiliates (any one affiliate
Reserve Act      and in the aggregate as to all affiliates); (2) requires that all covered
                 transactions between a member bank and its affiliates be on terms and
                 conditions that are consistent with safe and sound banking practices; (3)
                 prohibits the purchase of low-quality assets from an affiliate; and (4)
                 requires that extensions of credit by a member bank to an affiliate, and
                 guarantees on behalf of affiliates, be secured by statutorily defined
                 amounts of collateral.
Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R.
Capital          section 325.2(v), as:
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities
                 with readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Uniform Bank     The UBPR is an individual analysis of financial institution financial data
Performance      and ratios that includes extensive comparisons to peer group
Report (UBPR)    performance. The report is produced by the Federal Financial Institutions
                 Examination Council for the use of banking supervisors, bankers, and the
                 general public and is produced quarterly from Consolidated Reports of
                 Condition and Income data submitted by banks.




                                          34
                                                                               Appendix 4

                                  Acronyms

ADC             Acquisition, Development, and Construction
ALLL            Allowance for Loan and Lease Losses
C&D             Cease and Desist Order
CAMELS          Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
                Market Risk
CEO             Chief Executive Officer
CFO             Chief Financial Officer
CPP             Capital Purchase Program
CRE Co            mmercial Real Estate
DIF             Deposit Insurance Fund
DSC             Division of Supervision and Consumer Protection
DTA             Deferred Tax Asset
FBOP            First Bank of Oak Park Corporation
FDI             Federal Deposit Insurance
FHFA            Federal Housing Finance Agency
FHLB            Federal Home Loan Bank
GSE             Government Sponsored Enterprises
IDFPR           Illinois Department of Financial and Professional Regulation
MOU             Memorandum of Understanding
OCC             Office of the Comptroller of the Currency
OIG             Office of Inspector General
OTTI Other-Than-Tem             porary Impairment
PCA             Prompt Corrective Action
TARP            Troubled Asset Relief Program
TDB             Texas Department of Banking
UBPR            Uniform Bank Performance Report
UFIRS           Uniform Financial Institutions Rating System




                                          35
                                                                                     Appendix 5
                                    Corporation Comments



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        May 19, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
Director

SUBJECT:         Draft Audit Report Entitled, Material Loss Review of North Houston Bank, Houston,
                 Texas and Madisonville State Bank, Madisonville, Texas (Assignment No. 2010-014)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, the Federal Deposit Insurance
Corporation’s Office of Inspector General (OIG) conducted a material loss review of North
Houston Bank, Houston, Texas (North Houston) and Madisonville State Bank, Madisonville,
Texas (Madisonville) which failed on October 30, 2009. This memorandum is the response of
the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report (Report)
received on May 6, 2010.

The Report concludes North Houston and Madisonville failed because their Boards of Directors
and management did not develop and implement adequate risk management practices pertaining
to its investment securities, particularly Fannie Mae and Freddie Mac preferred stock; its
significant concentration in commercial real estate loans (CRE), which were deteriorating in
quality; and its loan participations from its affiliates. North Houston and Madisonville were two
wholly-owned subsidiaries of First Bank of Oak Park Corporation (FBOP), a privately-held
holding company in Oak Park, Illinois. In addition to North Houston and Madisonville, FBOP
owned six national banks and partially owned another state chartered non-member bank in
Illinois. The combined assets of North Houston and Madisonville represented only 3% of the
total assets of the banks of FBOP. The entire FBOP failed when several of the national banks
became undercapitalized.

The FDIC and the State of Texas Department of Banking (TDB) provided ongoing supervisory
oversight through regular onsite examinations, visitations, and offsite monitoring. The Office of
the Comptroller of the Currency closed the national banks and TDB closed North Houston and
Madisonville on October 30, 2009, because the institutions were unable to raise sufficient capital
to support their operations. DSC worked cooperatively with OCC, the Federal Reserve Board,
and TDB in the coordinated supervision of FBOP and its subsidiary institutions.

Thank you for the opportunity to review and comment on the Report.




                                                    36
